|

A

M

DocJset No.

IN THE
SUPREME COURT OF THE UNITED STATES

TIM SUNDY, Petitione

1MI 3 “ a

in
la
|| 3Is!
M
it fl

i

V.

FRIENDSHIP PAVILION ACQUISITIONCOMPANY, LLC. ETAL
Respondents
PETITION FOR A WRIT OF CERTIORARI
to the United States Court of Appeals for the Eleventh Circuit
from a determination in case No. 19-11391-CC
TIM SUNDY
227 Sandy Springs Place, Ste. D-465
Sandy Springs, GA 30328
404-409-5473
email: dstshall@earthlink.net
Pro se Petitioner
with motion and affidavit accompanying
for permission to proceed in forma pauperis

FILED
AUG 1 0 2020
u.s.

1.

X
QUESTION PRESENTED
1.
When the 11th Circuit U.S. Court of Appeals affirmed the U.S. District
Court’s abstaining from ruling on Sundy's independent claims despite Sundy being
clearly enjoined by order of the State trial court from asserting his independent
claims in the State proceeding, and with pro se Sundy required to meet subjective
and arbitrary requirements to qualify in both State and Federal court to file papers
with the clerk and to obtain a complete court record, did the 11th Circuit establish
that the liberty of Sundy can be restrained by the State of Georgia irrespective of
Constitutional protections, while denying Sundy recourse to a federal forum as well
as adequate remedy?
2.

Whether the State of Georgia can put United States citizens in custody when
Congress and/or the U.S. Constitution has afforded all United States citizens the
unconditional right to equal protection to be secured in their papers, including the
right to have a complete record in a court proceeding regardless of whether a citizen
has any case pending before an appellate court or any right to appeal?

i

-4

A list of all parties to the proceeding
In compliance with Rule 12.6 Rules of the Supreme Court of the United
States, all parties listed below have an interest in the outcome of the judgment
sought to be reviewed and promoted the judgment via inconsistent due process
and/or Fraud upon the court.
James H. Hatten, U.S. District Clerk for the Northern District of Georgia;
Daniel J. Ross, Deputy U.S. District Clerk for the Northern District of Georgia
David J. Smith, Clerk of the 11th Circuit U.S. Court of Appeals;
Therese Barnes, Clerk of the Supreme Court of Georgia;
Steve E. Castlen, Clerk of the Court of Appeals of Georgia;
Christopher M. Carr, Attorney General of the State of Georgia;
Martha C. Christian, Judge of the Superior Court of Hall County by appointment
Charles Baker, Clerk of the Superior Court of Hall County
C. Andrew Fuller, Judge of the Superior Court of Hall County;
Kathlene F. Gosslein, Judge of the Superior Court of Hall County;
Jacques (“Jack”) Partain, Senior Judge by appointment;
Bonnie Oliver, Judge of the Superior Court of Hall County;
Richard T. Winegarden, Senior Judge by appointment;
G. Grant Brantley, Judge of the Superior Court of Hall County;
Brenda Weaver, Judge of the Superior Court of Hall County;
Clint G. Bearden, Judge of the Superior Court of Hall County;
Lisa Cook, Deputy Clerk of the Superior Court of Hall County;
Brenda Brady, Deputy Clerk of the Superior Court of Hall County;

n

J

Friendship Pavilion Acquisition Company, LLC; a Delaware corporation;
Arsenal Real Estate Fund II-IDF, L.P.; a Delaware corporation;
Gary Picone, Senior Partner, Arsenal Real Estate Partners;
Thomas Ling, former Vice President, Arsenal Real Estate Partners;
Michael Weinstein,
Georgia Department of Transportation;
Nova Casualty Company, liability insurer for Hall County Clerk of Court;
Nova Lee Graber;
David Sundy.

in

Corporate Disclosure Statement
The Petitioner is not a corporation

• IV

I

LIST OF ALL PROCEEDINGS
Pursuant to Rule 14.(b)(iii)- Rules of the Supreme Court of the United States,
the list in State and Federal trial and appellate courts, including proceedings in this
Court, that are directly related to the case and the Judgment sought to be reviewed
in this Court as follows:
Cases in the State Magistrate Court of Hall County Georgia:
Case MV2015150183- Friendship Pavilion Acquisition Company, LLC. v.
Mediterranean Dining Group, affidavit for summons of dispossessory, filed 9 June
2015 and transferred to Superior Court of Hall County (“HCSC”) on 2 July 2015 as
HCSC case 2015CV1366.
Cases in the Superior Court of Hall County Georgia:
Case 2015CV1366- Friendship Pavilion Acquisition Company, LLC. v.
Mediterranean Dining Group, Defendant,

and Tim Sundy and David Sundy,

Intervenor Defendants and Third-party Plaintiffs vs Michael Weinstein, ARSENAL
REAL

ESTATE FUND II-IDF, L.P.; Thomas Ling, Gary Picone, Third-Party

Defendants. Judgment entered December 3, 2016 and December 6, 2016
Case 2016CV0982 -Tim Sundy v. C. Andrew Fuller, et al., a Brown v. Johnson,
251 Ga. 436 (Ga.1983) mandamus action. Judgment entered August 22, 2018.
Case 2017CV0031 -David Sundy v. Charles Baker, et al., a Brown v. Johnson,
251 Ga. 436 (Ga.1983) mandamus action. Judgment entered April 3, 2017.
Case 2017CV1125 J Charles Baker v. David Sundy and Tim Sundy. Judgment
entered July io, 2018
Case 2018CV00502 -In re: David Sundy, Still Pending.

v

i
■

&<

Cases in the Georgia Court of Appeals:
Case Number:
Style:

A17D0476 (Docket Date: May 31,2017)
DAVID SUNDY v. MARTHA C. CHRISTIAN, JUDGE
ETAL.
Denied 06/21/2017
COA Status:
Trial Court Case #: 2015CV1366
Case Number:
Style:

A17D0476 (Docket Date: May 31,2017)
DAVID SUNDY v. MARTHA C. CHRISTIAN, JUDGE
ET AL.
Granted 06/21/2017
COA Status:
Trial Court Case #: 2017CV31A
A17D0525 (Docket Date: June 19,2017)
DAVID SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.
Dismissed 07/17/20171
COA Status:
Trial Court Case #: 2015CV1366
Case Number:
Style:

Case Number:
Style:
COA Status:
Trial Court Case #:

A18A0170 (Docket Date: August 14,2017)
DAVID SUNDY v. MARTHA CHRISTIAN ET AL.
Lower Court Affirmed 03/28/2018
2017CV000031

A18A0290 (Docket Date: September 13,2017)
TIM SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.
Dismissed 10/03/2017
COA Status:
Trial Court Case #: 2015CV1366
Case Number:
Style:

Case Number:
Style:

A18D0215 (Docket Date: November 29,2017)
TIM SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.
Dismissed 12/28/2017
COA Status:
Trial Court Case #: 2015CV1366
Case Number:
Style:

A19D0108 (Docket Date: September 21,2018)
TIM SUNDY v. FRIENDSHIP PAVILION
ACQUISITION CO., ET AL.
Denied 10/19/20181
COA Status:
Trial Court Case #: 2016CV982

vi

[.

Case Number:
Style:

A19D0345 (Docket Date: February 15,2019)
TIM SUNDY v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC
COA Status:
Dismissed 03/15/2019
Trial Court Case #: 2015CV1366
Case Number:
Style:
COA Status:
Trial Court Case #:

A19E0011 (Docket Date: September 19,2018)
DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2017CV1125

Case Number:
Style:
COA Status:
Trial Court Case #:

A19E0011 (Docket Date: September 19,2018)
DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2016CV982

Case Number:
Style:
COA Status:
Trial Court Case #:

A19E0011 (Docket Date: September 19,2018)

Case Number:
Style:
COA Status:
Trial Court Case #

A19E0011 (Docket Date: September 19,2018)

DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2015CV1366

DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
Denied 09/19/2018
2018CV502

Case Number:
Style:

A20D0016 (Docket Date: July 29,2019)
TIM SUNDY v. FRIENDSHIP PAVILION
ACQUISITIONS CO., LLC et al.
COA Status:
Dismissed 08/27/2019
Trial Court Case #: 2015CV1366
Case Number:
Style:

A20E0037 (Docket Date: March 13,2020)
TIM SUNDY v. FRIENDSHIP PAVILLION
ACQUISITIONS LLC et al.
COA Status:
Denied 03/13/2020
Trial Court Case # 2015CV1366
Case Number:
Style:

A19D0398 (Docket Date: June 10,2020)
TIM SUNDY v. FRIENDSHIP PAVILLION
ACQUISITIONS LLC et al.
Denied 07/07/2020
COA Status:
Trial Court Case # 2015CV1366

Vll

I

Cases in the Supreme Court of Georgia:
Case Number:
Style:
GSUP Status:
Trial Court Case #

S17Q1606 (Docket Date: May 10, 2017)
SUNDY v. BAKER et al.
Dismissed 05/30/2017 Reconsid. Denied: 06/30/2017
2015CV1366

Case Number:
Style:

S18C0377 (Docket Date: May 10, 2017)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 05/30/2017
Trial Court Case # 2015CV1366
Case Number:
Style:

S18C0475 (Docket Date: November 13, 2017)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 05/07/2018
Trial Court Case # 2015CV1366
Case Number:
Style:

S18C0710 (Docket Date: January 19, 2018)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 05/07/2018
Trial Court Case # 2015CV1366
Case Number:
Style:

S18C0395 (Docket Date: November 8, 2018)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 06/03/2019; Recons. Denied 07/01/2019
Trial Court Case # 2016CV982
Case Number:
Style:

S19D0602 (Docket Date: January 2, 2019)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Transferred to COA 01/31/3019
Trial Court Case # 2015CV1366
Case Number:
Style:

S19D0838 (Docket Date: February 25, 2019)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Transferred to COA 03/20/2019
Trial Court Case # 2015CV1366
vm

J
Case Number:
Style:

S18C0395 (Docket Date: November 8, 2018)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
Denied 06/03/2019; Recons. Denied 07/01/2019
GSUP Status:
Trial Court Case # 2016CV982
S18C0943 (Docket Date: March 20, 2019)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
Denied 11/04/2019
Trial Court Case # 2015CV1366
Case Number:
Style:

S19Q1351 (Docket Date: June 13, 2019)
Case Number:
SUNDY v. CHRISTIAN et al.
Style:
Dismissed 08/05/2019; Recons. Denied 08/20/2019
GSUP Status:
Trial Court Case #
Case Number:
Style:
GSUP Status:
Trial Court Case #

S20M1044 (Docket Date: March 25, 2020)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
Denied 03/31/2020

S20C1075 (Docket Date: April 2, 2020)
SUNDY et al v. FRIENDSHIP PAVILLION
ACQUISITION LLC et al.
GSUP Status:
pending
Trial Court Case # 2015CV1366
Case Number:
Style:

Cases in the U.S. District Court - Northern District of Georgia:
Case Number:
Style:

2:15-cv-00149-RWS (Docket Date: July 10,2015)
FRIENDSHIP PAVILLION ACQUISITION LLC v.
MEDITERRANEAN DINING et al.
USDC Status:
Remanded to Hall County Superior Court 12/04/2015
Trial Court Case # 2015CV1366
Case Number:

2:16-cv-OO 123 -WCO (Docket Date: June 14, 2016)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
Style:
LLC et al.
Remanded to Hall County Superior Court 08/31/2016
USDC Status:
Trial Court Case # 2016CV982

IX

J
Case Number:
Style:
USDC Status:
Trial Court Case #

2:18-cv-0112-SCJ (Docket Date: July 10, 2018)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Complaint Dismissed 03/12/2019

Cases in the 11th Circuit USCA
Case Number:
Style:

19-10183 /Docket Date: January 16, 2019)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Sundy’s mandamus petition to restore missing
documents to 2:18-cv-Ol 12-SCJ
Denied (most documents restored by SCJ prior to USCA
USDC Status:
ruling)
Trial Court Case # 2:18-cv-Ol 12-SCJ
Case Number:
Style:

19-10445 (Docket Date: April 11, 2019)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Sundy’s petition requesting injunction until missing
documents are restored to 2:18-cv-Ol 12-SCJ
USDC Status:
Denied
Trial Court Case # 2:18-cv-0112-SCJ
Case Number:
Style:

19-11391 (Docket Date: February 4, 2019)
SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Dismissed. 03/13/2020
USDC Status:
Trial Court Case # 2:18-cv-Ol 12-SCJ

Cases in the Supreme Court of the United States:
Case 19-7600-Title: Tim Sundy, Petitioner v. Friendship Pavilion Acquisition
Company, LLC, et al.,... for writ of certiorari Petition DENIED on April 6,
2020.

x

Case 19-6694-Tim Sundy, Petitioner v. Martha C. Christian, Judge, et al....for writ
of certiorari Petition DENIED on January 27 2020, Rehearing DENIED on
March 23 2020.
Case 19-6821-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Co., et
al....for writ of certiorari Petition DENIED on Feb 24 2020, Rehearing
DENIED on March 23 2020.
Case 19-5506-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al

for writ of certiorari Petition DENIED on Feb 24

Rehearing DENIED on March 23 2020.
Case 19-8492- In re: Tim Sundy, pending.
Case 19-8491- In re: Tim Sundy, pending.

xi

2020,

TABLE OF CONTENTS
QUESTION PRESENTED...............................

i

PARTIES TO THE PROCEEDING BELOW

ii

CORPORATE DISCLOSURE STATEMENT

iv

LIST OF ALL PROCEEDINGS

v

TABLE OF CONTENTS

xii

TABLE OF AUTHORITIES

xiv

PETITON FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW.

1

STATEMENT OF JURISDICTION

1

RELEVANT CONSTITUTIONAL PROVISIONS

1

INTRODUCTION

2

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE PETITION

8

I. In misapplying Younger, the Court of Appeals enhanced deprivation
of Sundy’s First Amdendment rights...........................................................
8
A. The state courts do not offer “adequate remedy at law”..............

9

B. The state courts are proceeding in bad faith...................................

9

C. Sundy is entitled to equitable relief that makes
abstention inapproariate..............................................................................

10

D. There is no important state interest in unimpeded tampering
with the record..............................................................................................

12

E. The state cannot provide appellate review sufficient to accord
due process...... ..............................................................................................

14

F. Abstention has endgendered a hostile and
retailiatory environment for pro se litigants in Georgia................

14

II. Sundy is in custody, restrained of his liberty.......................................
CONCLUSION

15
24

APPENDIX:

Xll

s'

[1] USCA final order in 19-11391, March 13, 2020 —

A001

[2] USDC Docket 2:18-cv-00112-SCJ, January 12, 2019

A0013

[3] Sundy Notice to Georgia AG Carr, February 21, 2020

A0022

[4] HCSC Order on Sundy’s post-judgment motion, June 3, 2020-

A0024

[5] HCSC Final Judgment in 205CV1366, December 3, 2018

A0036

[6] HCSC Order by disqualified Judge Fuller, July 10, 2018

A0037

[7] Sundy’s Standing Objection, 2015CV1366, November 14, 2018

A0039

[8] HCSC Order to File Standing Objection, 2015CV1366, November 26, 2018

A0040

[9] Sundy’s Standing Objection, 2015CV1366, February 18, 2020

A0041

[10] HCSC Order dismissing Notice of Appeal, March 9, 2020

A0042

xm

TABLE OF AUTHORITIES
Cases
31 Foster Children, 329 F. 3d at 1279

8

Aoude v. Mobil Oil Corp., 892 F.2d 1115, 1119 (1st Cir. 1989)

4

Bolin v. Story, 225 F.3d 1242, 1243 (11th Cir. 2000)

8

Christopher v. Harbury, 536 U.S. 403, 413 (2002)

24

Collins v. Collins, 597 F. Supp. 33 (N.D. Ga. 1984)

14

Davis v. Phoebe Putney Health Systems, 280 Ga. App. 505, 506-507 (1) (634 SE2d 452)
20

(2006)

DeShaney v. Winnebago Cnty. Dep't of Soc. Servs. , 489 U.S. 189, 196, 109 S.Ct. 998,
25

103 L.Ed.2d 249 (1989)

24

Douglas v. California, 372 U.S. 353, 357 (1963)
Fetterly v. Paskett, 997 F.2d 1295, 1300 (9th Cir. 1993)

:.....22
11

Hardy v. United States, 375 U.S. 277, 84 S.Ct. 424, 11 L.Ed.2d 331 (1964)

3

Hazel-Atlas Glass Co. v. Hartford- Empire Co., 322 U.S. 238 (1944)
Hood v. State, 282 Ga. 462, 464 (Ga. 2007)

17

Johnson v. Atkins, 999 F.2d 99 (5th Cir. 1993

24
14, 17

Kegler v. State, 475 S.E.2d 593 (Ga. 1996)
Kugler v. Helfant, 421 U.S. 117, 124-25 (1975)

11

Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61, 112 S.Ct. 2130, 119 L.Ed.2d
3

351 (1992)
Mitchum v Foster, 407 US 225, 240 (1972)

,22

Mitchum v. Foster, 407 U.S. 225, 230, 92 S. Ct. 2151, 2156 (1972)

11

xiv

Monroe v. Pape, 365 U.S. 167, 81 S.Ct. 473, 5 L.Ed.2d 492 (1961)

2
.25

Morrissey v. Brewer, 408 U.S. 471 (1972)

New Orleans Pub. Serv., Inc. v. Council of New Orleans, 491 U.S. 350, 364 (1989)..10
Pennzoil Co. v. Texaco Inc., 481 U.S. 1, 19 (1987)

15

Sprint Commc'ns, Inc. v. Jacobs, 571 U.S. 69, 77 (2013)

12

State v. Lane, S19A1424 (Ga. Feb. 10, 2020)

21

State v. Studd, 137 533, 547 (Wn.2d 1999)

18

Thomas ex rel. Thomas v. Roberts, C.A.ll (Ga.) 2003, 2003 WL 934249.

16

U.S. v Mantilla, 226 Fed. Appx. 945,946 (11th Cir. 2007)

21

United States v. Rivera, 900 F2d 1462, 1469 (10th Cir. 1990)

21

United States v. Selva, 559 F.2d 1303, 1304 (5th Cir. 1977)

11

United States v. United States Gypsum Co., 438 U.S. 422^98 S.Ct. 2864^57 L.Ed.2d
11

854 (1978)
Younger v. Harris, 401 U.S. 37 (1971)

7,9

Statutes
18 U.S.C. § 751(a)

16

28 U.S.C. 1254(1)

1

42 U.S.C. §§ 12131-12134,

5

42 U.S.C. §§ 1983, 1985, 1986

5

Other Authorities
14

Constitution of Georgia
U. S. Constitution, Fifth Amendment

10, 13,22

U.S. Constititution, First Amendment

1, 13, 16, 22
xv

4I

U.S. Constitution, Fourteenth Amendment
U.S. Constitution, Fourth Amendment

1,10, 13,22
passim, 22
13,22

U.S. Constitution, Ninth Amendment

Rules
11th Cir. R. 31-2

7

11th Cir. R. 46-5

7

U.S. Supreme Court, Rule 30.1. 2

1

U.S. Supreme Court, Rule 13.1

1

xvi

PETITION FOR A WRIT OF CERTIORARI
Petitioner Tim Sundy respectfully petitions for a writ of certiorari to review
the final judgment of the Eleventh Circuit of the Court of Appeals (“USCA”) on
March 13, 2020 in 19-11391.
OPINION BELOW
The judgment of the Eleventh Circuit of the Court of Appeals (“USCA”) is
unpublished and is in the Appendix at A001-A0012.
STATEMENT OF JURISDICTION
The judgment of the court of appeals was issued on 13 March 2020 A001. On
19 March 2020, this Court issued Miscellaneous Order (Order List: 589 U.S.) in light
of the ongoing public health concerns relating to COVID-19, extending filing
deadlines to 150 days from the lower court judgment. This Petition to this Court is
therefore timely under this Court’s Rule 13.1 and Rule 30.1. 2. The jurisdiction of
this Court is invoked under 28 U.S.C. 1254(1).
RELEVANT CONSTITUTIONAL PROVISIONS
Section 1 of the Fourteenth Amendment to the Constitution of the United
States provides that no “State [shall] deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
The First Amendment to the Constitution of the United States right to
petition for redress of grievances and access to the court are also implicated, as well
as the Fourth Amendment right to be secure in one’s papers.
are inextricably intertwined.
1

Rights and remedies

INTRODUCTION
The theoretical possibility of a state court remedy does not necessarily afford
realistic protection for civil rights. A multitude of federal cases testify that a federal
remedy has often been necessary to awaken state and local governments to their
responsibilities toward those under their protection. See, e.g., Monroe v. Pape, 365
U.S. 167, 81 S.Ct. 473, 5 L.Ed.2d 492 (1961).
Petitioner Sundy has been denied a complete record in every trial court
proceeding in the state of Georgia for almost five years.

The record is still

incomplete in the State Superior Court as well as in the U.S. District Court.
Georgia courts have refused to grant Sundy any relief from the incomplete record
and, by the Courts’ design and creation, Sundy cannot obtain an appeal on a
complete record in Georgia, a fatal situation when claims cannot be supported by
the record.

Additionally, during the course of Sundy’s case in USCA, the clerk of

the Georgia Supreme Court committed intentional fraudulent conduct specifically
directed at the court itself upon Sundy’s original action in the Georgia Supreme
Court while the trial court continued to subjectively and arbitrarily withhold
Sundy’s papers from record.
Sundy has pursued extraordinary remedies in State courts including petition
for writ of mandamus, application for injunction, and emergency motion in order to
obtain a complete record in the trial court. Sundy has been rebuffed, subjected to a
secret filing injunction, and dismissed or denied by court officers acting uncivilly
and unethically in violation of rules of civil procedure and professional conduct.

2

When a pro se litigant is forced to run a purely subjective and arbitrary
gauntlet of qualification to have papers docketed by a clerk or to obtain a complete
record, the pro se litigant is denied fair procedure as well as equal protection of the
law.

When judicial misconduct results in favorable judgments to attorney-

represented parties, the available remedies for the pro se litigant diminish
substantially. Sundy has suffered an injury-in-fact’ that is ‘fairly . . . trace [able] to
the challenged actions of the defendant judges and clerks and is ‘likely . . . [to] be
redressed by a favorable decision’ in court.” Lujan v. Defenders of Wildlife, 504 U.S.
555, 560-61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992) (internal quotation marks
omitted). The federal court has chosen to abstain
Sundy’s liberty has been restrained by the State of Georgia with his
constitutional rights to petition for redress of grievances; to equal protection of the
laws; and to due process violated by the State courts, the very institutions set up to
protect and safeguard the public.

The federal court has chosen to abstain.

Furthermore, tampering with the administration of justice in the manner
indisputably shown here involves far more than an injury to a single
litigant. It is a wrong against the institutions set up to protect and
safeguard the public, institutions in which fraud cannot complacently be
tolerated consistently with the good order of society. Surely it cannot be
that preservation of the integrity of the judicial process must always wait
upon the diligence of litigants. The public welfare demands that the
agencies of public justice be not so impotent that they must always be
mute and helpless victims of deception and fraud. Hazel-Atlas Glass Co.
v. Hartford- Empire Co., 322 U.S. 238 (1944).
In civil action 2:18-CV-112-SCJ, pro se Sundy requested that the U.S. District
Court of the Northern District of Georgia declare his rights. After all, the federal
court is also equipped with equitable power to correct transgressions that occur

3

before them, recognizing that oftentimes pro se victims lack both the skill and
knowledge to uncover or adequately contextualize misconduct.

The federal court

chose to abstain and the abstention was upheld by USCA.
All in all, we find it surpassingly difficult to conceive of a more
appropriate use of a court’s inherent power than to protect the sanctity
of the judicial process—to combat those who would dare to practice
unmitigated fraud upon the court itself. Aoude u. Mobil Oil Corp., 892
F.2d 1115, 1119 (1st Cir. 1989)
Most pro se appearances by civil litigants are not voluntary, but instead result
because they simply cannot afford attorneys to represent them. This is the case
with Sundy who is victim of a scheme of prevention of performance and RICO
perpetrated by Respondents Friendship Pavilion, Arsenal Real Estate, Gary Picone,
Thomas Ling, and Michael Weinstein which forced Sundy into debt, robbed him and
his siblings of retirement savings, peace of mind, and faith in the justice system.
Respondents have not rebutted Sundy’s claims but rather sought to invoke
the bias of the courts against pro se litigants in general and Sundy in particular.
Sundy has no skill in the science of law and this ignorance has been exploited by
officers of the court. Despite ample documentary evidence of constitutional
violations, the 11th Circuit states “that Sundy’s claims are difficult to discern.” A003
footnote This difficulty appears to be endemic to Circuit Courts with the courts
stating in more than 2,000 cases involving pro se litigants that the pro se claims
were “difficult to discern.” It appears that the difficulty automatically disappears if
litigants are represented by attorneys.
While it is true that federal courts should use abstention to defer to states
when doing so will enhance the quality of federal law enforcement, state courts do
4

not deserve deference simply because they are state courts or because they have
jurisdiction over a case in which the State may have an interest. In Sundy’s case,
the State’s interest is in preventing or defusing the exposure of corruption and
statutory violations by court officers. If the State court’s ability to apply federal law
in cases that appear before them is compromised by bias or judicial misconduct,
Younger abstention is not merited and should, indeed, be avoided at all costs.

STATEMENT OF THE CASE
A. Action initiated in District Court
Case No. 2:18-CV-112-SCJ was initiated on 10 July 2018 in the United States
District Court for the Northern District of Georgia — Gainesville Division (“USDC”) by
pro se plaintiffs Tim Sundy, David Sundy and Nova-Lee Graber pursuant to 42 U.S.C.
§§ 1983, 1985, 1986 and 42 U.S.C. §§ 12131-12134, and for other violations of rights
under the U. S. Constitution of equal protection, due process and full access to the
court. The action was precipitated by events in Georgia state courts including Hall
County Superior Court, the Georgia Court of Appeals and the Supreme Court of
Georgia. In filing this case in USDC, pro se plaintiffs were exercising their right to
defend against civil liability as well as against state court officers’ violations of state,
federal and constitutional law, predicated upon a constitutional right to equal
protection, to be secure in their papers and to a court record of sufficient completeness
to permit effective appellate review of their claims.

B.

USDC procedural and due process violations duplicative of state court
violations

5

On 31 July 2018, the first irregularity appeared upon the USDC docket with
Document [11] missing A0016.

Document [12] then appeared, with the docket

purporting it as filed by Sundy and other plaintiffs. Sundy and other plaintiffs filed a
motion to strike Document [12] with affidavits averring that Plaintiffs had not filed the
document. Then Document [57] A0019 was missing from the docket. Then Sundy’s
Motion to Strike Defendant Friendship’s [78] and Opposition to Reply Brief Doc.
[78] AND [81], properly filed on 17 December 2018, was not recorded on the docket.
Sundy consistently preserved all objections and due process rights as regards Docs.
[11], [12], [57], his missing Motion to Strike, and Friendship’s default. USDC also
sometimes recorded the wrong date upon the face of the record of when Sundy’s
document(s) was actually filed.
With the USDC record mirroring the material defects and omissions which
occurred in the State courts, Sundy filed petition for writ of mandamus in USCA in an
attempt to remedy the incomplete record.

Hours before a USDC hearing on 23

January 2018, allegedly as the result of a phone call from USCA to USDC, the record
was partially corrected with USCA subsequently denying mandamus action 19-10183.
A minute entry of the hearing was entered on the docket on 24 January 2019. No
further written orders were issued by USDC. On 25 January 2019, Sundy’s Motion to
Strike, missing from the record since it was filed on 17 December 2018, was forwarded
to USDC for review. The USDC hearing, upon an incomplete record, occurred over the
objection of pro se Sundy and placed Sundy in an unconstitutional condition while
depriving Sundy of the right to properly present his claims and to be fully heard upon a
complete record.
6

c.

USDC Case Dismissed
On 12 March 2019, the USDC Clerk docketed thirteen orders signed by the

USDC dismissing all matters in instant case USDC 112 citing Younger u. Harris, 401
U.S. 37 (1971) abstention , with the Court’s final order Doc. [117] denying Sundy’s
IFP without ruling on his indigence, rather stating that the appeal was “frivolous.”
On 11 April 2019, Sundy timely filed Notice of Appeal (“NOA”) Doc. [120] in the USDC
on the final orders and a contemporaneous IFP in the USCA as specified in Doc. [117].
On 1 May 2019 USDC issued another order denying another Sundy IFP. On 17 May
2019, Sundy filed an Amended NOA.
D.

Irregularities in the 11th Circuit

The USCA, while threatening pro se Sundy with dismissal for procedural infractions:
1)

allowed attorney-represented parties to improperly file out-of-time documents
without leave of the court in violation of 11th Cir. R. 31-2;

2)

allowed attorneys to speak for respective unrepresented appellees without
filing an Appearance of Counsel Form in compliance with 11th Cir. R. 46-5;.

3)

allowed attorney-represented parties to file deficient briefs;

4). allowed attorney-represented parties to default on Sundy’s Motion for Rule Nisi;
5)

withheld pro se Sundy’s timely and properly filed documents from the docket;

6)

denied pro se Sundy actual notice of deficiency;

7)

recorded the wrong date upon the face of the record of when Sundy actually
filed document(s).

As Sundy has experienced in the State courts and the District Court, a purportedly
impartial judicial system gives every available advantage and special privilege to
7

attorney-represented parties while denying pro se Sundy equal protection.

Pro se

Sundy has an established pattern of being procedurally correct as far as he is able,
despite the ongoing bad faith actions of court officers to tamper with the record in ways
that confuse or mislead pro se parties.

But, as Congressman Hank Johnson once

stated in private conversation, “pro se’s always lose.”
E.

11th Circuit affirms in part and dismisses in part
Citing, among others, 31 Foster Children, 329 F. 3d at 1279, USCA affirmed

Younger abstention: “A federal court should assume that state procedures will afford an
adequate remedy...” Likewise, the USCA found the dismissal of Respondent Friendship
by USDC was justified by a meritorious defense that Friendship never raised.
REASONS FOR GRANTING THE PETITION
I. In misapplying Younger, the Court of Appeals enhanced deprivation of
Sundy’s First Amendment rights
In Bolin v. Story, 225 F.3d 1242, 1243 (11th Cir. 2000), USCA explained that a
plaintiff has adequate remedies at law if he is able to file an appeal or extraordinary
writ. USCA did not address whether trial court officers conspiring to corrupt the record
on appeal, or withholding pro se’s documents to render him procedurally incorrect, or - ■
denying the right to file an extraordinary writ unless a disabled plaintiff travels 600-plus
miles to physically appear before a disqualified judge who can only issue void orders,
translates into an “adequate remedy at law.” USCA did not address whether officers of
the State’s Supreme Court and the State’s Court of Appeals falsifying documents to
ensure that a pro se litigant is procedurally deficient translates into an “adequate
remedy at law.” Yet these are part of Sundy’s claims and the facts of this case.

8

A.

The state courts do not offer an “adequate remedy at law”
Sundy presented facts and evidence that the actions by State Superior Court

officers are in bad faith and that there is no adequate alternative state forum where
constitutional issues can be raised. Younger v. Harris, 401 U.S. at 45, 53-54, 91 S.Ct.
at 751, 755.

The Fourth Amendment violations perpetrated by officers of the state

court, including judges and clerks of court, have disallowed Sundy from an adequate
remedy for his federal claims.

For example, the USDC posited in one of its twelve

final orders, Doc. [Ill], that an order issued by Defendant Judge Fuller is “uniquely in
furtherance of the state courts’ ability to perform their judicial function.” The USDC
ignored the facts and evidence that disqualified Judge Fuller had no jurisdiction
to issue any orders. Fuller having previously disqualified himself in the case in
which he issued his ruling, as well as in all cases in which Sundy was a party,
subjecting Sundy to an unlawful two-judge panel judge which is positively inconsistent
with both local rules of the court and the American legal system's long-standing
practice of assigning a case or motion, at the trial level to a 'single' judge.
“There is no greater federal interest in enforcing the supremacy of
federal statutes than in enforcing the supremacy of explicit
constitutional guarantees, and constitutional challenges to state
action, no less than pre-emption-based challenges, call into question
the legitimacy of the State's interest in its proceedings reviewing or
enforcing that action.” New Orleans Pub. Serv., Inc. v. Council of New
Orleans, 491 U.S. 350, 364 (1989)
B.

The state courts are proceeding in bad faith
The USDC focused on injunctive relief in its Orders of dismissal while

completely ignoring that Sundy asked for declaratory relief, i.e., is pro se Sundy
immune from criminal activity and can state court officers, in bad faith, remove and/or
9

destroy pro se Sundy’s documents from the official court record ensuring that pro se
Sundy suffers a concrete injury and has no adequate appeal and no protection against
constitutional violations.
Both the USDC and USCA ignore that there are no state interests at stake and
that Sundy is not seeking review of any state court proceedings.

Among other

questions, Sundy is seeking clarification of his constitutional right to be secure in his
papers under the Fourth Amendment, to be fairly compensated under the Fifth
Amendment, and to be immune from criminal activity under the Fourteenth
Amendment.
The USDC stated judicial notice as of 11 March 2019 of the online dockets for
the Supreme Court of Georgia and the Georgia Court of Appeals, observing “two open
appeals for the state court action 2015CV1366”. These two discretionary applications,
Georgia Supreme Court S19D0838 and Georgia Court of Appeals A19D0345, were
subsequently denied, with the State appellate courts having demonstrated a bad faith,
pre-determined plan to deny -- with a single sentence - every remedy sought by Sundy
in the State Courts as well as to ensure that Sundy’s record remains incomplete on
appeal. The State appellate courts have also refused to hold court officers responsible
for violations of Georgia statutes or the state and federal constitutions.

C.

Sundy is entitled to equitable relief that makes abstention inappropriate
This Court has recognized exceptional circumstances in which Younger

abstention might be inappropriate: where the irreparable injury is "great and
immediate," where the state law in question is "flagrantly and patently violative of
express constitutional prohibitions," or where the plaintiff demonstrates bad faith,
10

harassment, or other "unusual circumstances" justifying equitable relief. Mitchum
v. Foster, 407 U.S. 225, 230, 92 S. Ct. 2151, 2156 (1972)
Extraordinary circumstances may justify an exception to Younger
abstention when the state court cannot fairly and fully adjudicate the
constitutional issues and the plaintiff presents "an extraordinarily
pressing need for immediate federal equitable relief." Kugler v.
Helfant, 421 U.S. 117, 124-25 (1975)
Pro se Sundy, with the right to be immune from crimes while a Defendant in
Hall County Superior Court (“HCSC”) 2015CV1366, and while a Plaintiff in USCA
19-11391-CC. Sundy has an unconditional right to have a complete record in any
official proceeding in the State of Georgia whether it's a State Court or Federal
court while attending a hearing. Inferred from United States v. Selva, 559 F.2d
1303, 1304 (5th Cir. 1977); Hardy v. United States, 375 U.S. 277. 84 S.Ct. 424. 11
L.Ed.2d 331 (1964); United States v. United States Gypsum Co., 438 U.S. 422, 98
S.Ct. 2864. 57 L,Ed.2d 854 (1978).
In the course of exhausting his remedies, Sundy sought relief in USDC 1911391-CC, to no avail.

Sundy’s USDC civil action arose out of constitutional

violations occurring in the State Superior Court as well as a dispute involving acts of
federal RICO committed by Respondent Friend. In USDC, Sundy did not seek review by
the federal court of any judgments in the state court civil action but rather requested a
declaration on the constitutionality of the practices employed by court officers, including
judges and clerks of court, to deprive Plaintiffs of full access to the court.
The USDC dismissed all parties on 12 March 2019 citing Younger abstention.
The United States Supreme Court has emphasized that circumstances warranting
Younger abstention are “exceptional,” and the mere pendency of parallel state
11

proceedings is not itself a bar to federal court litigation.

None of the exceptional

circumstances warranting Younger abstention exist here.
Pro se Sundy has exhausted all remedies to correct the record as a matter of
right in the State of Georgia in HCSC 2015CV1366 and Sundy has been unable to
overcome the obstacles of corruption, fraud and inconsistent due process created by
Georgia's judiciary .
D.

There is no important state interest in unimpeded tampering with
court records by court officers.
“Jurisdiction existing, this Court has cautioned, a federal court’s
“obligation” to hear and decide a case is “virtually unflagging.”
Colorado River Water Conservation Dist. v. United States, 424 U.S.
800. 817. 96 S. Ct. 1236. 47 L. Ed. 2d 483 (1976). Parallel state-court
proceedings do not detract from that obligation. See ibid.” Sprint
Commc'ns, Inc. v. Jacobs, 571 U.S. 69, 77 (2013)
Georgia Attorney General Christopher M. Carr has allowed respondents to

remove, falsify, and otherwise tamper with the record in reaching void orders and
judgments, with the record in HSCS incomplete to this day.

Meanwhile,

Respondent Nova Casualty Corp. continues to finance HCSC Clerk Baker’s defense
against Sundy’s attempts to redress Baker’s conduct of removing Sundy’s documents
from the record.
This in turn, has subjected Sundy to significant restraints on his liberty to
avail himself of his First Amendment rights to have full access to the courts,
including the appellate court. Sundy is restrained of liberty to avail himself of the
Fourth Amendment to be secured in his papers by unreasonable seizures. Sundy is
restrained of liberty to avail himself of the Fifth Amendment’s protection from
deprivation of his property without due process of law, with property taken without
12

just compensation. Sundy is restrained of liberty of the immunity afforded by the
Ninth Amendment, where his enumeration of certain rights under the Constitution,
are being construed by the co-respondents as denying or disparaging the rights
retained by the people.

Tim Sundy has been violated of the said Federal

constitutional rights in a denial of equal protection within the purview of the
Fourteenth Amendment.
The State of Georgia has placed a significant restraint on Tim Sundy’s liberty,
just shy of physical custody, with said respondents deemed as the State of Georgia.
State Attorney General Christopher M. Carr, on multiple notices in HCSC
2015CV1366 A0022, has breached his paramount duty to equally protect Sundy and
his property against the transgression of co-respondents within the scope of the
Fourteenth Amendment.
Protection to person and property is the paramount duty of government
and shall be impartial and complete, No person shall be denied equal
protection of the laws. Constitution of Georgia, Art. 1 § l^f 2: Protection
to person and property.
The Georgia General Assembly has failed in its duty to enact effective laws to
protect United States citizen Tim Sundy in the full enjoyment of the rights,
privileges, and immunities due to Sundy’s citizenship.
All citizens of the United States, resident in the state, are hereby
declared citizen of this state; and it shall be the duty of the General
Assembly to enact such law as will protect them in the full enjoyment
of the rights, privileges, and immunities due to such citizenship.
Constitution of Georgia, Art. l§lt 7: Protection of Citizen,

13

Sundy is without remedy in Georgia against constitutional violations
and the issuing of void orders by inconsistent due process, not only in the trial
court but in the appellate courts as well.
E.

The State cannot provide appellate review sufficient to accord due
process.
Georgia’s trial court and appellate courts have denied Sundy a complete

court record. The state therefore cannot provide appellate review sufficient to
accord Sundy the essentials of due process. See Collins v. Collins, 597 F.
Supp. 33 (N.D. Ga. 1984).
“The burden is on the complaining party, "including pro se appellants,
[cit.], to compile a complete record of what happened at the trial level, and
when this is not done, there is nothing for the appellate court to
review.' [Cit.]" Wright v. State, 215 Ga. App. 569, 570 (2) ( 452 S.E.2d
118) (1994). See also Johnson v. State, 261 Ga. 678, 679 (2) ( 409 S.E.2d
500) (1991); Brown v. State, 223 Ga. 540, 541 (2) ( 156 S.E.2d 454)
(1967).” Kegler v. State, 475 S.E.2d 593 (Ga. 1996)'
Sundy cannot carry his burden to compile a complete record, neither can
Sundy substantiate claims because of missing orders and transcripts.
F.

Abstention has engendered a hostile and retaliatory environment
for pro se litigants in Georgia
The USCA and USDC have sent the unmistakable message to Georgia’s citizens

that the federal court will tolerate (and even endorse) egregious violations (as well as
crimes) purportedly to advance state court proceedings when such violations are
committed by state court officers, thereby diminishing the rights of citizens, and
fostering a hostile and retaliatory environment for pro se litigants who have the audacity to confront court officers on statutory and constitutional violations.

14

“I also agree with his conclusion that the District Court was not required
to abstain under the principles enunciated in Younger v. Harris, 401 U.S.
37 (1971). Post, at 30, n. 2. I adhere to my view that Younger is, in
general, inapplicable to civil proceedings, especially when a plaintiff
brings a § 1983 action alleging violation of federal constitutional rights.
See Huffman v. Pursue, Ltd., 420 U.S. 592, 613 (1975) (BRENNAN, J.,
dissenting) ( Younger held "that federal courts should not interfere with
pending state criminal proceedings, except under extraordinary
circumstances" (emphasis in original)); Juidice v. Vail, 430 U.S. 327. 342
(1977) (BRENNAN, J., dissenting) ("In congressional contemplation, the
pendency of state civil proceedings was to be wholly irrelevant. 'The very
purpose of § 1983 was to interpose the federal courts between the States
and the people, as guardians of the people's federal rights'") (quoting
Mitchum v. Foster, 407 U.S. 225. 242 (1972)).” Pennzoil Co. v. Texaco
Inc., 481 U.S. 1, 19 (1987)
Sundy invoked the Federal court prior to the State court’s determining Sundy's
post proceedings. The abstention of the Federal court further emboldened the State
court to repeat its conduct of making a determination upon an incomplete record to
render another void order. A0024
II. Sundy is in double custody, restrained of his liberty in
State and Federal courts
The USCA in case 19-1391-CC affirmed USDC’s abstention from Sundy's
independent claims A0012 while, by order of the State trial court, Sundy was enjoined
from filing his independent claims in the State proceeding Sundy's First Amendment
and Fourth Amendment constitutional rights have thus been violated by the Federal
and State courts’ agreement to deprive Sundy of his independent claims.
For the purpose of qualified immunity analysis in Fourth Amendment
cases, factually similar case are not always necessary to Establish that a
government actor was on notice that certain conduct is unlawful; if the
[petitioner] in a § 1983 action can show that the official’s conduct lies so
obviously at the very core of what the Fourth Amendment prohibits that
the unlawfulness of the conduct was readily apparent to the official is not
entitled to qualified immunity. Thomas ex rel. Thomas v. Roberts, C.A.11
(Ga.) 2003, 2003 WL 934249.
15

The American Heritage Dictionary defines custody as, "2. the state of being
kept or guarded or restrained; and 3. the state of being legally detained or
restrained or held under guard, especially by the police." Statute 18 U.S.C. § 751(a)
clarifies custody as including “custody under or by virtue of any process issued
under the laws of the United States by any court, judge, or magistrate judge.”
Both the State and Federal Courts have established that Sundy, in a denial of
equal protection, is restrained from First Amendment protections and must
subjectively qualify, based upon arbitrary requirements not applied to other civil
litigants, for a complete court record by first coming to a hearing/official proceeding —
only then might Sundy qualify to have his papers docketed by the clerk, with the
Courts reserving the right to further withhold First and Fourth Amendment
protections from Sundy.

The Courts have placed no such burden on attorney-

represented parties nor given Sundy due process of notice that he must qualify for his
Fourth Amendment right to be secure in his papers or that Georgia courts have
redefined the duties of the clerk as it pertains to Sundy.
The duties of the clerk relating to the filing of pleadings are ministerial
in nature, and "'[i]t is the official duty of the clerk of a court to file all
papers in a cause presented by the parties, and to mark them filed,
with the date of filing. (Cits.)' [Cit.] 'A paper is said to be filed, when it
is delivered to the proper officer, and by [that officer] received, to be
kept on file.’ [Cit.]" Forsyth v. Hale, 166 Ga. Ann. 340, 342 ( 304 SE2d
81) (1983)... It is beyond the purview of the clerk to be concerned with
the legal viability of a pleading presented to the clerk for filing. See
Hughes v. Sikes, 273 Ga. 804 (1) ( 546 SE2d 518) (2001)” Hood v.
State, 282 Ga. 462, 464 (Ga. 2007)
Sundy is thus restrained of his liberty by both State and Federal courts in
Georgia to have an unconditionally complete court record and to have an adequate

16

appeal, since it is the burden of the Appellee to perfect the record, see Kegler v. State,
475 S.E.2d 593 (Ga. 1996) above.
A.

Sundv is in custody by the State of Georgia.
The objective of State courts appears to be to blame Sundy for an incomplete

record.

This involves inviting Sundy to a hearing while Sundy's timely-submitted

documents are not on the docket nor part of the record. Since there is no opposition on
the docket by an adverse party, the trial Judge has no jurisdiction over non-formed
issues unless and until Sundy walks into the courtroom. The trap set by the court is to
get Sundy to volunteer into the court’s jurisdiction while acquiescing to the incomplete
record.

As experienced by Sundy, the trial judge may even have the missing

documents in his hands at the hearing, having predetermined the outcome of the nonformed issue.
Invited error refers to a trial court's error against which a party cannot
complain to an appellate court because the party encouraged or prompted
the error by its own conduct during the trial. The original goal of the
invited error doctrine was to prohibit a party from setting up an error at
trial and then complaining of it on appeal. In State v. Pam, the State of
Washington intentionally set up an error in order to create a test case for
appeal. Since then, the doctrine has been applied even in cases where the
error resulted from neither negligence nor bad faith. See, e.g., State u.
Studd, 137 533, 547 (Wn.2d 1999).
On December 3, 2018, respondent Judge Martha C. Christian entered a void
judgment by inconsistent due process and/or fraud A0036 against Tim Sundy and
his brother David Sundy, over Tim Sundy's objection, while there were missing
documents of record in case 2015CV1366 HCSC. On June 3, 2020, Respondent Judge
Martha C. Christian entered another void Order over Sundy's objection while there
were still missing documents in the same record of case 2015CV1366 HCSC, A0024
17

In November 2018, it appears disqualified Judge Fuller A0037 failed to
determine the fate of Sundy's 14 November 2018 INTERVENORS' STANDING
OBJECTIONS TO ALL VOID ORDERS AND PROCEEDINGS, AND NOTICE TO
THE COURT OF PENDING MATTERS IN FEDERAL COURT (“2018 Objection”)
A0039-first page only and it was not filed until 26 November 2018 when a hand
written ORDER A0040 from Respondent Judge Christian was stamp-filed in the court
at 11:38 am, commanding the Clerk to file Sundy’s 2018 Objection.
On 26 November 2018 a calendar call was held at 10:00 am while Sundy's 2018
Objection was filed sometime after the hand written ORDER was stamp-filed in the
court at 11:38 am A0040., i.e., sometime after the calendar call proceedings.

Had

Sundy acquiesced to appear at 10:00 am for the calendar call proceedings, he would yet
again have been in a court-orchestrated, subjective requirement to participate in a
proceeding upon an incomplete record, and again be threatened with jail (or thrown
into jail) for adamantly refusing to abandon his constitutional right to be secure in his
papers.
HCSC repeated its ongoing pattern of material falsity, i.e., concealing the
material fact of Sundy’s documents/pleadings and depriving Sundy of rights under color
of law,

when

Sundy’s

21

February

2020

STANDING

OBJECTION

TO

INCONSISTENT DUE PROCESS AND FRAUD UPON THE COURT (“2020
Objection”) A0041-first page only, was not docketed until more than a week after a
2 March 2020 hearing. The trial court subsequently accused Sundy of delay under
OCGA § 5-6-48(c) in its 9 March 2020 Order A0042 because Sundy did not desire to pay
for an incomplete record, as stated in Sundy’s withheld 2020 Objection, A0041 while
18

also determining that the only way Sundy could appeal as a matter of right was to pay
for an incomplete record.
Despite pro se Sundy’s every effort to comply with the substantive and
procedural requirements of the law, Sundy is always confronted with the tiresome
question of why Sundy’s papers (2020 Objection A0041) are withheld from the record
and not timely docketed by the Clerk.
As evidenced by its 9 March 2020 Order A0042, the trial court had Sundy's
papers (2020 Objection A0041) in hand while sitting on the bench on 2 March 2020 but
the papers were not docketed by the clerk until more than a week after the hearing,
repeating the pattern of Sundy’s 2018 Objection et alreinforcing Sundy’s argument
that he must subjectively meet arbitrary requirements not applied to other civil litigants
in order to qualify to have his papers docketed. The actions of the court suggest that the
docketing of Sundy’s papers has nothing to do with an objective determination of
whether papers should be filed in an existing case, but instead the actual prejudice of the
court, in violation of Sundy’s civil rights, and the need of the court to “sanitize” the record
so that Sundy cannot prevail on appeal. The trial court selectively paraphrased details
from Sundy's in hand 2020 Objection and deliberately misrepresented the facts to
achieve a false perception in its Order A0042, knowing that the Court might again “file
13” (i.e., trash can) Sundy’s papers so that they never appeared upon the record.
Pro se Sundy must stand his ground about “missing document(s)” before
participating in an official proceeding. See Davis v. Phoebe Putney Health Systems,
280 Ga. App. 505, 506-507 (1) (634 SE2d 452) (2006) ("A party cannot participate and
acquiesce in a trial court's procedure and then complain of it.")
19

This is the same

ground Sundy maintained by not paying the cost to have an incomplete record
transmitted and falsely certified as complete to the appellate court as the HCSC clerk
has previously done.
In other words, if Sundy participates in a proceeding while knowing that
documents are withheld from the record, and with no guarantee that documents will
be entered on the record by the clerk since the court has demonstrated that it may elect
not to file Sundy’s documents, Sundy would have lost any grounds to complain.
Thus, Respondent Judge Christian is correct in her June 3, 2020 by saying
“Every time this Court set a hearing, Defendants refused to attend”. A0024
and that is because in weighing the facts, the record demonstrates there has never
been a complete record in 2015CV1366 since December 2016 upon which to have a
hearing, trial, or an effective, meaningful appeal. The facts show that Sundy’s 2016
Joint Objection was removed and absent from the record at the time of the May
2017 hearing and thereafter. Every time Respondent Judge Christian set a hearing,
it was with document(s) missing from the record. The handwritten order A0040
proves that the Court makes a subjective, arbitrary decision without basis in law as to
whether or not to docket Sundy’s papers. This is a denial of equal protection and
demonstrates that Sundy is in custody, restrained from the ordinary rights and
privileges of other Georgia citizens involved in civil litigation.
Pro se Sundy’s consistent claim for a complete record in court proceedings is
coupled with the right to effective, meaningful appellate review since a complete record
functions to ensure procedural due process on appeal. U.S. v Mantilla, 226 Fed. Appx.
945,946 (11th Cir. 2007). The pattern of inconsistent due process and denial of First
20

Amendment protections established by the Respondents, withholding or removing
Sundy’s

papers

from

court

record

and

then

making

improper

“factual

determinations” and findings of law with evidence and argument missing from the
record, establishes more than just deprivations under the Fourth and Fourteenth
Amendments, it is criminal in nature. The courts may keep writing off this pattern
of behavior as harmless error. However;
“The cumulative effect of two or more individually harmless errors has
the potential to prejudice a defendant to the same extent as a single
reversible error. The purpose of a cumulative-error analysis is to
address that possibility. Such an analysis is an extension of the
harmless-error rule, which is used to determine whether an individual
error requires reversal.” State v. Lane, S19A1424 (Ga. Feb. 10, 2020)
citing United States u. Rivera, 900 F2d 1462, 1469 (10th Cir. 1990)
From a disqualified judge issuing an injunctive order against Sundy in a case
over which another judge is presiding to Sundy’s timely and properly filed papers
disappearing from the court record for months, the credulity of impartial justice has
been strained.

From Sundy’s mandamus petitions being mooted by phone calls and

under the table orders and then denied as frivolous, with no court officers being
publicly disciplined while Sundy obtains only partial relief, to orders being held off
the docket in violation of State statutes until Sundy’s procedural deadlines are in
jeopardy, the pattern of corruption enhances Sundy’s claim of being in custody while
denied justice. In Fetterly v. Paskett, 997 F.2d 1295, 1300 (9th Cir. 1993), the Court
stated that “[T]he failure of a state to abide by its own statutory commands may
implicate a liberty interest protected by the Fourteenth Amendment against
arbitrary deprivation by a state."

21

B. Sundv’s liberty is restrained bv the Federal court in the State of Georgia.
Congress enacted § 1983 and its predecessor, § 2 of the Civil Right Act of
1866, 14 Stat. 27, to provide an independent avenue for protection of
federal constitutional rights. The remedy was considered necessary
because "state courts were being used to harass and injure individuals,
either because the state courts were powerless to stop deprivations or were
in league with those who were bent upon abrogation of federal protected
rights. Mitchum u Foster, 407 US 225, 240 (1972). Emphasis added
Sundy sought the protections of the federal court over his constitutional rights
under the First, Fourth, Fifth, Ninth and Fourteenth Amendments.

However, the

corrupt practices utilized in State court case 2015CV1366 HCSC turned out to be
endemic to the United States District Court (“USDC”). USDC subjected Sundy to the
same violations, following the same pattern as the Respondents in State court by
restraining Sundy's liberty to fully access the Federal court. Papers were removed or
withheld from the court record while the court circumvented the Constitution and laws
by placing no obligation upon the adverse parties to file a written response or opposition
to Sundy's missing papers, in a manner that is materially inconsistent with due process.
When a document is not on the docket of a case and there is no opposition to
the missing document, there wouldn't be an issue formed before the Judge in the
case, thus the Judge has no jurisdiction. This operates materially inconsistent with
due process over the issues missing from the record. If the practice of the court is to
set a hearing when there are no issues before the court, it seems a reasonable person
should inquire about the purpose for participating in a hearing.
The issue of missing documents was a partial impetus for Sundy filing a
complaint in USDC. Imagine Sundy’s dismay when the same practice was found to

22

be systemic in Federal court case 2:18-CV-112-SCJ. As in state court, USDC held a
hearing upon an incomplete record, rendering inconsistent due process.
On March 12, 2019, the USDC judge issued 12 orders in case 2:18-CV-112SCJ and 1 judgment. The Orders and judgment should be void by virtue of the fact
that they were rendered upon an incomplete record. The USDC docket shows that
the document at Doc [116], Sundy’s timely response to Doc [10], was put on the
docket on March 12, 2019, 2 months after the January 23, 2019 hearing and absent
from the record a total of 7 months after it was filed. Once again, Sundy was invited
to error, set up to come to court upon an incomplete record. The trial court couldn't
have considered all Sundy's documents at the hearing when the clerk had a
document secretly tucked away.
“Meaningful access to the courts is a fundamental constitutional right,
grounded in the First Amendment right to petition and the Fifth and
Fourteenth Amendment due process clauses." Johnson v. Atkins, 999
F.2d 99 (5th Cir. 1993
Sundy is in a form of double custody in the United States.

On one hand,

Sundy is in State custody because he is restrained of liberty by order of HCSC
access the court to file his independent Claims in an official State proceeding.
On the other hand, Sundy is restrained of liberty of litigating his independent
Claims in a federal proceedings by the federal court abstaining and allowing the
State to have absolute custody to reach a conclusion by inconsistent due process
and/or fraud upon the court.
“Whether an access claim turns on a litigating opportunity yet to be
gained or an opportunity already lost, the very point of recognizing any
access claim is to provide some effective vindication for a separate and

23

distinct right to seek judicial relief for some wrong.”
Harhury, 536 U.S. 403, 413 (2002)

Christopher v.

In both the State and Federal proceedings, Sundy is restrained of liberty to have
equal protection of due process of a complete record. In both State and Georgia Federal
proceedings, Sundy must come to a hearing upon an incomplete record.
There is lacking that equality demanded by the Fourteenth Amendment
where the rich man, who appeals as of right, enjoys the benefit of
counsel's examination into the record, research of the law, and
marshalling of arguments on his behalf, while the indigent, already
burdened bv a preliminary determination that his case is
without merit, is forced to shift for himself. The indigent, where
the record is unclear or the errors are hidden, has only the right to a
meaningless ritual, while the rich man has a meaningful appeal.
Douglas v. California, 372 U.S. 353, 357 (1963) emphasis added
CONCLUSION
This Court has explained that "the Due Process Clause of the Fourteenth
Amendment was intended to prevent the government from abusing its power,"
DeShaney v. Winnebago Cnty. Dep't of Soc. Servs. , 489 U.S. 189, 196, 109 S.Ct. 998,
103 L.Ed.2d 249 (1989) (internal quotation marks and alterations omitted). Sundy
has raised constitutional violations by the courts in the State of Georgia,
documenting subjective requirements upon pro se Sundy which have the effect of
unconstitutionally excluding Sundy from a fair and impartial judicial process, while
punishing Sundy solely because he believes that judges and other court officers are
subject to the law and statutes of Georgia as enacted.
This Court recognized in Morrissey v. Brewer, 408 U.S. 471 (1972) that when
a State creates a liberty interest, the Due Process Clause requires fair procedures
for its vindication—and federal courts will review the application of those

24

constitutionally required procedures.

Georgia has arbitrarily deprived Sundy of

rights of access to the court and the USDC chose to abstain from reviewing those
deprivations.
This Court should grant certiorari and reverse the decision of the United
States Court of Appeals for the Eleventh Circuit.
Respectfully submitted this 10th day of August, 2020.

Tim Sundy, pro^s^J
227 Sandy Springs Place, Ste D-465
Atlanta, GA 30328
dstshall@e arthlink. net
404-409-5473

25

